                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

 Case Number: 1-12-05-0031                                                                  Page 1 of 1



         This investigation was based on information received that a nonprofit organization1, with no
         apparent affiliation2 with NSF, was using the NSF logo on its website 3 . The NSF logo, which
         appears on multiple pages of the website is preceded by: "Endorsed by the National Science
         Foundation."

         The investigation ultimately determined that the head4 of the nonprofit organization had actually
         been collaborating with NSF personnel regarding the nonprofit organization's website. In
         addition, as soon as NSF notified the head of the nonprofit organization to remove the logo from
         the website, it was removed.

         Accordingly, this case is closed with no further action taken.




NSF OIG Form 2 (11/02)
